                                                                      C-IN-BOR-003-00-R

                 United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                          Washington, D.C. 20240


                                                                                 June 8, 2001

Memorandum

To:          Commissioner, Bureau of Reclamation

Subject:     Independent Auditors Report on Bureau of Reclamation Financial Statements
             for Fiscal Year 2000 (No. 01-I-408)

        As discussed in the attached independent auditors report on the Bureau of
Reclamation’s financial statements for fiscal year 2000, we found that Reclamation’s
principal financial statements were fairly presented in all material respects. The
statements consist of the Consolidated Balance Sheet as of September 30, 2000; the
Consolidated Statement of Net Cost and Consolidated Statement of Changes in Net Position
for the fiscal year ended September 30, 2000; and the Consolidated Statement of Budgetary
Resources for the fiscal year ended September 30, 2000. Our tests of Reclamation’s
internal controls, however, identified material weaknesses and reportable conditions.

Internal Controls

Material Weaknesses. We found internal control weaknesses in the land inventory and
construction-in-progress account.

      Ø Land Inventory. Reclamation did not have a complete and accurate inventory
        system to support the lands and land rights reported as $1.9 billion in the footnotes
        to the financial statements as a component of general property, plant, and
        equipment. The weakness occurred because Reclamation had not established
        adequate procedures for maintaining an accurate inventory of lands and land rights
        and for reconciling its subsidiary records with its financial accounting system.
        Reclamation recognized the need for supporting records and issued a 5-year action
        plan to develop a complete and accurate land inventory that supported the financial
        accounting system, issued interim guidelines and procedures for reconciling land
        records, and developed a schedule for completing the reconciliation within the 5-
        year plan period.

      Ø Construction-in-Progress Account. Reclamation’s construction-in-progress
        account included costs for completed projects, costs that should have been
        expensed when incurred, inappropriate costs for land, inappropriate costs for
        grants, and costs for projects whose construction had been placed in abeyance. We
        determined that the account was overstated by approximately $1.1 billion.
Reportable Conditions. In addition to the material weaknesses, we identified reportable
conditions in the following areas:

   Ø Inconsistent Accounting Treatment. Reclamation had not established or
     enforced the management controls necessary to ensure that financial data are
     processed and accounted for consistently within Reclamation. As a result,
     Reclamation’s accounts required adjustments totaling in excess of $1.7 billion,
     which includes the $1 billion discussed in the section on the construction-in-
     progress weakness.

   Ø Prior Year Adjustments for Line Description PY ADJ.* Reclamation
     improperly included $12.6 million of prior period activity identified as PY ADJ*
     in fiscal year 2000 activity.

   Ø Undelivered Orders. Reclamation did not fully implement the controls identified
     in the Reclamation Manual Supplement Fin 03-20-20-100-B, "Reconciliation of
     SGL Accounts," and the Financial Accounting Services year-end memorandum to
     ensure adequate oversight on undelivered orders by program managers.

   Ø Prior Year Revenue Recognition. Reclamation did not always record revenue in
     the accounting records in the appropriate fiscal periods.

Compliance With Laws and Regulations

      The results of our tests of compliance with certain laws and regulations disclosed no
instances of noncompliance that are required to be reported under "Government Auditing
Standards" and Office of Management and Budget (OMB) Bulletin 01-02.

Consistency of Other Information

      We found that the information presented in the Management Discussion and Analysis
and the supplementary information sections of Reclamation’s Annual Report for fiscal year
2000 were consistent with the principal financial statements.

        As detailed in the attached report, we made 12 recommendations to correct the
identified internal control weaknesses. Based on Reclamation’s April 10, 2001 response
(see Appendix 3 of the Attachment) to the draft report, we consider 2 recommendations
resolved and implemented and 10 recommendations resolved but not implemented (see
Appendix 4 of the Attachment).

     Since all of the recommendations are resolved, no further response to the Office of
Inspector General is required (see Appendix 4 of the Attachment).




                                             2
       Section 5(a) of the Inspector General Act (5 U.S.C. app.3) requires the Office of
  Inspector General to list this report in its semiannual report to the Congress.

       The independent auditors report is intended for the information of management of the
  Department of the Interior, the OMB, and the Congress. However, this report is a matter of
  public record, and its distribution is not limited.




                                        Roger La Rouche
                                        Assistant Inspector General
                                          for Audits


  Attachment


[CONTACT THE BUREAU OF RECLAMATION FOR INFORMATION ON ITS FINANCIAL
STATEMENTS FOR FISCAL YEAR 2000, WHICH ARE NOT INCLUDED.]




                                               3
                                                         Attachment




Independent Auditors Report
Bureau of Reclamation
Financial Statements
Fiscal Year 2000
We have audited the Bureau of Reclamation’s (Reclamation)
principal financial statements for the fiscal year ended
September 30, 2000. Reclamation’s principal financial statements
consist of the Consolidated Balance Sheet as of September 30,
2000; the Consolidated Statement of Net Cost and Consolidated
Statement of Changes in Net Position for the fiscal year ended
September 30, 2000; and the Consolidated Statement of Budgetary
Resources for the fiscal year ended September 30, 2000. These
financial statements are the responsibility of Reclamation, and our
responsibility is to express an opinion, based on our audit, on these
principal financial statements.

Our audit was conducted in accordance with the “Government
Auditing Standards,” issued by the Comptroller General of the
United States, and with Office of Management and Budget (OMB)
Bulletin 01-02, “Audit Requirements for Federal Financial
Statements.” These standards require that we plan and perform the
audit to obtain reasonable assurance as to whether the principal
financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts
and disclosures contained in the principal financial statements and
the accompanying notes. An audit also includes assessing the
accounting principles used and the significant estimates made by
management, as well as evaluating the overall financial statement
presentation. We believe that our audit work provides a reasonable
basis for our opinion. The objective, scope, and methodology of
our work are discussed in Appendix 1.

Opinion on Principal Financial Statements
In our opinion, the principal financial statements referred to above
present fairly, in all material respects, the financial position of
Reclamation as of September 30, 2000 and its consolidated net cost,
changes in net position, and budgetary resources for the fiscal year
ended September 30, 2000 in conformity with generally accepted
accounting principles.




                                  4
Our audit was conducted to form an opinion on the principal
financial statements taken as a whole, and our opinion relates only
to the principal financial statements. The supplemental financial
and management information contained in Reclamation’s Annual
Report and footnotes 13 and 15 is presented for additional analysis
and is not a required part of the principal financial statements. We
applied certain limited procedures, including discussions with
management on the methods of measurement and presentation of this
information, to ensure compliance with OMB guidance and
consistency with the financial statements. This information,
however, has not been subjected to the auditing procedures applied
in our audit of the principal financial statements, and accordingly,
we express no opinion on it.

As discussed in Note 5 to the financial statements, Reclamation
changed its method of treating certain investigations and
development costs in fiscal year 2000.

As discussed in Note 1E, the Department changed its accounting for
appropriations of trust and special receipt revenues in accordance
with new guidance from the Department of the Treasury. The
change also resulted in a significant decrease to appropriations used
and a significant change to transfers, net.

Report on Internal Controls
In planning and performing our audit, we considered Reclamation’s
internal controls over financial reporting by obtaining an
understanding of the internal controls, determining whether the
internal controls had been placed in operation, assessing control
risks, and performing tests of the controls to determine our auditing
procedures for the purpose of expressing an opinion on the principal
financial statements. We limited our internal control testing to those
controls necessary to achieve the objectives described in Bulletin
01-02. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial
Integrity Act (FMFIA) of 1982, such as those controls relevant to
ensuring efficient operations. The objective of our audit was not to
provide assurance on internal controls, and accordingly, we do not
provide an opinion on the internal controls.

Our consideration of the internal controls over financial reporting
would not necessarily disclose all matters in the internal controls
over financial reporting that might be reportable conditions. Under
standards issued by the American Institute of Certified Public


                                  5
                        Accountants, reportable conditions are matters coming to our
                        attention relating to significant deficiencies in the design or
                        operation of the internal controls that, in our judgment, could
                        adversely affect Reclamation’s ability to record, process,
                        summarize, and report financial data consistent with the assertions
                        made by management in the financial statements. Material
                        weaknesses are reportable conditions in which the design or
                        operation of one or more of the internal control components does not
                        reduce to a relatively low level the risk that misstatements in
                        amounts that would be material in relation to the financial statements
                        being audited may occur and not be detected within a timely period
                        by employees in the normal course of performing their assigned
                        functions. Because of inherent limitations in internal controls,
                        misstatements, losses, or noncompliance may occur and not be
                        detected.

                        We noted certain matters involving the internal controls and their
                        operation that we considered to be material weaknesses or reportable
                        conditions.

                        Material Weaknesses

                        Our review identified two conditions that we believe to be material
                        weaknesses, as follows:

A. BOR Needs Improved   Reclamation did not have a complete and accurate inventory system to
                        support the lands and land rights reported as $1.9 billion in the
Controls Over Land
                        footnotes to the financial statements as a component of general
Inventory
                        property, plant, and equipment. The weakness occurred because
                        Reclamation had not established adequate procedures for maintaining
                        an accurate inventory of land and land rights and for reconciling its
                        subsidiary records with its financial accounting system.
                        Reclamation’s financial accounting system support for lands and land
                        rights costs is detailed in a cost summary report that had not been
                        reconciled with subsidiary records, including individual project plat
                        book maps (along with individual land purchase contracts).

                        After we informed Reclamation that the subsidiary records did not
                        support the land costs, Reclamation initiated an effort to reconcile
                        the financial accounting system with its project plat book maps and
                        acquisition records. Our subsequent tests of Reclamation’s
                        reconciliation efforts disclosed that additional efforts were needed
                        to ensure that the subsidiary records for land supported
                        Reclamation’s financial accounting system. Reclamation recognized
                        the need for supporting records and issued a 5-year action plan to
                        develop a complete and accurate land inventory that supported the
                        financial accounting system, issued interim guidelines and

                                                          6
                           procedures for reconciling land records, and developed a schedule
                           for completing the reconciliation within the 5-year plan period.

                           Recommendations

                           We recommend that the Commissioner, Bureau of Reclamation:

                                   1. Develop a complete and accurate inventory system that
                           identifies, by project, all lands and land rights.

                                   2. Develop policies and procedures that require the
                           inventory for lands and land rights to be adequately maintained and
                           reconciled on a periodic basis with the land acquisition records and
                           with amounts reported in the general ledger accounts for lands and
                           land rights

                                  3. Include a material land inventory system internal control
                           weakness in Reclamation’s Federal Managers’ Financial Integrity
                           Act report to the Department of the Interior.

                           Reclamation Response. Reclamation concurred with our
                           recommendations. In response to our recommendations,
                           Reclamation issued a 5-year action plan for the development of a
                           complete and accurate inventory system, issued interim guidance for
                           maintaining the land inventory and reconciling the inventory with the
                           general ledger, and has included the weakness in its FMFIA report.

B. Reclamation Needs       Reclamation did not have sufficient internal controls to ensure that
                           the general ledger control account for construction-in-progress was
Improved Controls Over
                           accurate. The account included costs for completed projects, costs
Construction-in-Progress
                           that should have been expensed when incurred, costs for land that
Account
                           should have been recorded in the standard general ledger for land,
                           costs for grants that should have been expensed, and costs for
                           projects where the construction had been placed in abeyance. As
                           such, the account was overstated by approximately $1.1 billion. The
                           overstatement impacts several accounts including land; other
                           property, plant, and equipment; accumulated depreciation; and
                           depreciation expense. When informed of these deficiencies,
                           Reclamation reviewed the account balances and transactions and
                           made the necessary adjustments.




                                                            7
Recommendations

We recommend that the Commissioner, Bureau of Reclamation:

        1. Implement management oversight procedures to ensure
that the construction-in-progress account only includes costs for
items meeting the definition of property, plant, and equipment and
that completed projects are transferred in a timely manner.

        2. For construction projects placed in abeyance, disclose
the current status of the projects in a footnote to the financial
statements.

       3. For lands and land rights, record all land costs in the
standard general ledger for lands and land rights.

        4. For grant costs, develop and implement specific policies
and internal controls to ensure that proper accounting treatment is
established when the agreement is entered into with the grantee and
is followed through project completion.

Reclamation Response. Reclamation concurred with the
recommendations. Reclamation issued a Preliminary Draft
Reclamation Manual Supplement on plant accounting that addressed
oversight responsibilities for properly reporting property, plant, and
equipment costs. Reclamation agreed to record all land and land
rights costs in the standard general ledger account for land. As
relates to grant costs, Reclamation will issue guidance and
implement controls to ensure proper treatment. In addition,
Reclamation will disclose in its financial statements the current
status of construction projects placed in abeyance.




                                  8
                         Reportable Conditions
                         We identified reportable conditions as follows:

C. Inconsistent          Reclamation has not established or enforced the management
                         controls necessary to ensure that financial data are processed and
Accounting Treatment
                         accounted for consistently within Reclamation. For example, land
                         costs were recorded in three standard general ledger accounts
                         including land; construction-in-progress; and other property, plant,
                         and equipment. In another example, Reclamation transferred costs
                         from the construction-in-progress account for some completed
                         project features in a timely manner, while for other project features
                         Reclamation did not transfer the costs until several years after
                         completion. As a result, Reclamation’s accounts required
                         adjustments totaling in excess of $1.7 billion which includes the $1.1
                         billion described in Finding B above.

                         Recommendations

                         We recommend that the Commissioner, Bureau of Reclamation:

                                1. Develop management controls requiring the
                         standardization of accounting for similar costs, including
                         management oversight of the regions to ensure the regions are
                         applying the policies and procedures consistently.

                                 2. Review the application of accounting posting models to
                         ensure that similar transactions are treated the same.

                         Reclamation Response. Reclamation concurred with the
                         recommendations. Reclamation has established a CFO Audits
                         Project Team to identify opportunities for improving management
                         controls and oversight. Additionally, Reclamation will issue
                         guidance, when necessary, and establish controls to ensure that
                         consistent accounting treatment is achieved Reclamation-wide.

D. Reclamation Needs     Reclamation improperly included prior period activity in fiscal year
                         2000 activity. These transactions were identified by “PY ADJ*” in
Improved Controls Over
                         the line description. The “PY ADJ*” description occurred on
Prior Period Activity
                         20,380 transaction lines and affected standard general ledger
                         accounts in the current and prior year.

                         When informed of this deficiency, Reclamation reviewed the
                         transactions and made the necessary adjustments totaling
                         $12.6 million.



                                                           9
                         Recommendation

                         We recommend that the Commissioner, Bureau of Reclamation,
                         develop written guidance regarding proper treatment of line
                         description “PY ADJ*” transactions and proper recording of prior
                         year adjustments.

                         Reclamation Response. Reclamation concurred with the
                         recommendation and will issue written guidance which addresses
                         the proper treatment of “PY ADJ*” transactions and prior period
                         adjustments.

E. Reclamation Needs     Reclamation did not fully implement the controls identified in the
                         Reclamation Manual Supplement Fin 03-20-20-100-B,
Improved Controls Over
                         Reconciliation of SGL Accounts, and the FAS year-end
Undelivered Orders
                         memorandum to ensure adequate oversight on undelivered orders by
                         program managers. We reviewed a sample of the undelivered
                         orders account at year-end and determined that Reclamation was not
                         always deobligating balances promptly.

                         When informed of the need to review the undelivered orders account
                         to identify the appropriate balance, Reclamation reviewed the
                         sampled transactions and made adjustments.

                         Recommendation

                         We recommend that the Commissioner, Bureau of Reclamation,
                         implement the controls identified in Reclamation’s Manual
                         Supplement and year-end memorandum to ensure adequate
                         monitoring of undelivered orders by program managers.

                         Reclamation Response. Reclamation concurred with the
                         recommendation. Reclamation will emphasize the need for
                         monitoring and reviewing undelivered orders in the year-end
                         memorandum.

F. Reclamation Needs     Reclamation’s internal control procedures were not sufficient to
                         identify and record revenue in the appropriate fiscal periods.
Improved Controls Over
                         Reclamation included in its fiscal year 2000 general ledger revenue
Prior Year Revenue
                         accounts an estimated $113 million earned in fiscal year 1999.
Recognition
                         Ø A majority ($77 million) of the dollar value was Reclamation’s
                           share of rents and royalties collected from lessees of Federal
                           onshore oil and gas leases. Reclamation received the amount in
                           fiscal year 2000 although the funds were earned for oil and gas
                           produced in fiscal year 1999.

                                                         10
Ø Another large portion ($15 million) of the dollar value
  represented Reclamation’s share of revenues from land and
  timber sales. Reclamation received the amount in fiscal year
  2000 although the funds were earned from sales in fiscal year
  1999.

When informed of the need to review these transactions to identify
the appropriate fiscal periods for the revenue to be accrued,
Reclamation reviewed the transactions and made adjustments.

Recommendation

We recommend that the Commissioner, Bureau of Reclamation,
implement procedures to accrue revenue in the fiscal period in
which it is earned.

Reclamation Response. Reclamation concurred with the
recommendation and will develop and implement procedures to
ensure recognition of revenue in the proper fiscal periods.

Stewardship and Performance Measures

In addition, we considered Reclamation's internal controls over
Required Supplementary Stewardship Information by obtaining an
understanding of Reclamation’s internal controls, determining
whether these internal controls had been placed in operation,
assessing control risks, and performing tests of controls as required
by Bulletin 01-02. Our review was not of sufficient scope to
provide assurance on these internal controls. Accordingly, we do
not provide an opinion on such controls.

With respect to internal controls related to performance measures
reported in the Management Discussion and Analysis section of the
Annual Report, we obtained an understanding of the design of
significant internal controls relating to the existence and
completeness assertions as required by Bulletin 01-02. Our
procedures were not designed to provide assurance on internal
controls over reported performance measures, and accordingly, we
do not provide an opinion on such controls.




                                 11
Report on Compliance With Laws and
Regulations
Management of Reclamation is responsible for complying with
applicable laws and regulations. As part of obtaining reasonable
assurance as to whether Reclamation’s financial statements are free
of material misstatement, we performed tests of Reclamation’s
compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect
on the determination of financial statement amounts, and certain
other laws and regulations specified in Bulletin 01-02, including the
requirements referred to in the Federal Financial Management
Improvement Act (FFMIA) of 1996. We limited our tests of
compliance to these provisions and did not test compliance with all
laws and regulations applicable to Reclamation.

Under the FFMIA, we are required to report whether Reclamation’s
financial management systems substantially comply with (1) Federal
financial management system requirements, (2) applicable Federal
accounting standards, and (3) the U.S. Government Standard
General Ledger at the transaction level. To meet our reporting
requirement, we performed tests of compliance with the FFMIA
section 803(a) requirements. The results of our tests disclosed no
instances in which Reclamation’s financial management systems did
not substantially comply with these three requirements.

The results of our tests of compliance with certain laws and
regulations, exclusive of the FFMIA, disclosed no instances of
noncompliance that are required to be reported under “Government
Auditing Standards” and Bulletin 01-02.

Providing an opinion on compliance with certain provisions of laws
and regulations was not an objective of our audit, and accordingly,
we do not express such an opinion.




                                 12
Prior Audit Coverage
We reviewed prior Office of Inspector General and General
Accounting Office audit reports related to Reclamation’s financial
statements to determine whether these reports contained any
unresolved or unimplemented recommendations that were
significant to Reclamation’s financial statements or internal
controls. The results of this review are in Appendix 2.


We made 12 recommendations addressing the material weaknesses
and reportable conditions that we identified in our tests of
Reclamation’s internal controls. Based on Reclamation’s April 10,
2001 response (see Appendix 3), we consider 2 of the
recommendations resolved and implemented and 10 of the
recommendations resolved but not implemented. The
recommendations that have not been implemented will be forwarded
to the Assistant Secretary for Policy, Management and Budget for
tracking of implementation. Since all the recommendations are
considered resolved, no further response to the Office of Inspector
General is required (see Appendix 4).

Section 5(a) of the Inspector General Act (5 U.S.C. app.3) requires
the Office of Inspector General to list this report in its semiannual
report to the Congress.

This report is intended for the information of management of the
Department of the Interior, the Office of Management and Budget,
and the Congress. However, this report is a matter of public record,
and its distribution is not limited.




                               Roger La Rouche
                               Assistant Inspector General
                                 for Audits




                                 13
                                                                                   Appendix 1


Objective, Scope, and Methodology
Management of Reclamation is responsible for the following:

     Ø Preparing the principal financial statements and the required supplementary
        information in conformity with generally accepted accounting principles and for
        preparing the other information contained in the Annual Report for fiscal year 2000.

     Ø Establishing and maintaining an internal control structure over financial reporting. In
        fulfilling this responsibility, estimates and judgments are required to assess the
        expected benefits and related costs of internal control structure policies and
        procedures.

     Ø Complying with applicable laws and regulations.

We are responsible for the following:

   Ø Expressing an opinion on Reclamation’s principal financial statements.

   Ø Obtaining an understanding of the internal controls based on the internal control
     objectives in Bulletin 01-02, which require that (1) transactions be properly recorded,
     processed, and summarized to permit the preparation of the principal financial
     statements and the required supplementary information in accordance with Federal
     accounting standards; (2) assets be safeguarded against loss from unauthorized
     acquisition, use, or disposal; and (3) transactions and other data supporting reported
     performance measures be properly recorded, processed, and summarized to permit the
     preparation of performance information in accordance with criteria stated by
     management.

   Ø Testing Reclamation compliance with selected provisions of laws and regulations that
     could materially affect the principal financial statements or the required supplementary
     information.

To fulfill these responsibilities, we took the following actions:

   Ø Examined, on a test basis, evidence supporting the amounts disclosed in the principal
     financial statements.

   Ø Assessed the accounting principles used and the significant estimates made by
     management.

   Ø Evaluated the overall presentation of the principal financial statements.




                                               14
   Ø Obtained an understanding of the internal control structure related to safeguarding
     assets; compliance with laws and regulations, including the execution of transactions in
     accordance with budget authority; financial reporting; and certain performance measure
     information reported in the annual report.

   Ø Tested relevant internal controls over the safeguarding of assets; compliance with laws
     and regulations, including the execution of transactions in accordance with budget
     authority; and financial reporting.

   Ø Tested compliance with selected provisions of laws and regulations.

We did not evaluate all of the internal controls related to the operating objectives as broadly
defined by the Federal Managers’ Financial Integrity Act, such as the controls related to
preparing statistical reports and ensuring efficient operations. We limited our internal control
testing to those controls needed to achieve the objectives outlined in our report on internal
controls.




                                               15
                                                                                      Appendix 2


Prior Audit Coverage
Our review of prior Office of Inspector General and General Accounting Office audit reports
related to Reclamation financial statements was conducted to determine whether these reports
contained any unresolved or unimplemented recommendations that were significant to
Reclamation’s financial statements or internal controls. Our review disclosed that there were
no General Accounting Office reports that contained significant unresolved or unimplemented
recommendations related to Reclamation’s principal financial statements. The Office of
Inspector General, however, had three reports that had significant unresolved or
unimplemented recommendations which were considered to be reportable weaknesses as
follows:

         Ø “Development Status of the Dolores and the Animas-LaPlata Projects, Bureau of
Reclamation” (No. 94-I-884), dated July 1994, stated that the economic justification and the
financial feasibility of the Dolores and the Animas-LaPlata Projects have declined because of
changes in both Reclamation’s criteria for computing project benefits and the local farmers’
ability to afford the costs of irrigated agriculture. Two of the report’s three recommendations
have been implemented, but the remaining recommendation, to finalize a cost allocation that
reallocated costs based on the use of facilities rather than on benefits, has not been
implemented. The revision to the cost allocation is cited in the 1988 Supplement to the
Definite Plan Report and is expected to be finalized pending completion of a significant
portion of the Dolores Project construction. Reclamation approved the final cost allocation on
January 25, 2001. By memorandum dated March 1, 2001, the Department of the Interior’s
Office of Financial Management informed the Office of Inspector General that Reclamation had
completed the action required to implement the report’s three recommendations.

         Ø “Follow-up of Recovery of Irrigation Investment Costs, Bureau of Reclamation”
(No. 98-I-250), dated February 1998, stated that Reclamation had not taken actions necessary
to accelerate recovery of interest-free irrigation assistance costs concurrent with the interest-
bearing power investment costs. Reclamation, in accordance with applicable legislation,
assigns to power users the repayment of that portion of project irrigation investment which
exceeds the irrigation water user’s ability to pay, referred to as irrigation assistance. It is the
policy of Reclamation and the Power Marketing Administrations to provide for the repayment
of this assistance near the end of a project’s irrigation repayment period. In 1989, the Office
of Inspector General concluded that, as a result of this policy, additional revenues estimated at
$2.1 billion (with a value of $415 million in 1989) would not be collected over the repayment
periods of the respective projects. In 1990, Reclamation requested and received advice from
the Office of the Solicitor that stated that concurrent repayment of irrigation assistance is
allowed for certain projects. Reclamation, however, had not revised its policy for repayment
of irrigation assistance based on the advice received. Reclamation did support legislation
proposed by the Department of Energy that intended to place all power repayment obligations,
including irrigation assistance, on a straight-line amortization basis with interest. However, no
such legislation had been enacted. As a result of the delayed repayment, the value of the
irrigation assistance investment recovered by Reclamation will be substantially reduced, and

                                                16
taxpayers will unnecessarily bear the costs of subsidizing the project beneficiaries. Based on
the response from the Assistant Secretary for Water and Science to our report, we considered
the report’s three recommendations unresolved and have referred the recommendations to the
Assistant Secretary for Policy, Management and Budget for resolution. In an August 21, 2000
memorandum, the Assistant Secretary for Policy, Management and Budget detailed four steps
to be taken by Reclamation to resolve the recommendations. The required actions had not been
completed by September 30, 2000. The estimated completion dates for steps 1 and 3 are June
1, 2001 and September 21, 2001, respectively. The estimated completion date for step 2 has
not been determined. No completion date is applicable to step 4.

        Ø “Irrigation of Ineligible Lands, Bureau of Reclamation” (No. 94-I-930), dated July
1994, stated that Reclamation had not taken actions necessary to ensure that Federal project
water was used to irrigate only lands determined to be suitable for irrigation and eligible to
receive water under Federal law. As a result, lands Reclamation identified as ineligible to
receive Federal water were being irrigated from at least 24 projects in eight states despite the
existence of other competing needs for water. Because of a pending lawsuit against
Reclamation and other agencies regarding flows in the Snake and Columbia Rivers,
Reclamation has been advised by counsel to not proceed with development of any plans
addressing unauthorized water use that might affect Reclamation’s Pacific Northwest Region.
Reclamation, therefore, has submitted to the Office of Inspector General separate plans that
address unauthorized water use in Reclamation’s other four regions.




                                               17
     Appendix 3




18
19
20
21
22
                                                                                  Appendix 4


       STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
       Reference                 Status                        Action Required


 A.1, A.2, B.1, B.3, B.4,   Resolved; not        No further response to the Office of
   C.1, C.2, D.1, E.1,      Implemented.         Inspector General is required. The
         and F.1                                 recommendations will be forwarded to the
                                                 Assistant Secretary for Policy, Management
                                                 and Budget for tracking of implementation.


      A.3 and B.2           Implemented.         No further action is required.




                                            23
